                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




EVALUATION REPORT
The Department of Energy's Unclassified
Cybersecurity Program – 2014




 DOE/IG-0925                         October 2014
                                 Department of Energy
                                    Washington, DC 20585

                                        October 22, 2014


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Evaluation Report on "The Department of Energy's
                         Unclassified Cybersecurity Program – 2014"

BACKGROUND

The use of information technology by Federal entities is evolving rapidly, leading to
advancements in areas such as virtualization technologies, cloud computing, and mobile devices
that offer opportunities to increase the value and accessibility of Government resources and
information. However, this progression also exposes Federal information and systems to new
and constantly changing threats. In its Fiscal Year (FY) 2013 report to Congress, the Office of
Management and Budget reported that the volume and sophistication of attacks against Federal
resources continued to grow, increasing by approximately 26 percent over those reported in
FY 2012. As such, it is important that the Federal government, to include the Department of
Energy, reduce its information security risks to a level commensurate with the criticality of its
systems and the sensitivity of the information within them.

The Federal Information Security Management Act of 2002 (FISMA) established the
requirement for Federal agencies to develop, implement, and manage agency-wide information
security programs. In addition, Federal agencies are required to provide acceptable levels of
security for the information and systems that support their operations and assets. Further,
FISMA mandated that agency Offices of Inspector General conduct annual independent
evaluations to determine whether agencies' unclassified cybersecurity programs adequately
protected unclassified data and information systems. This report documents the results of our
evaluation for the Department for FY 2014.

RESULTS OF EVALUATION

During FY 2014, the Department, including the National Nuclear Security Administration, had
taken positive actions to improve the security and awareness of the unclassified cybersecurity
program. While the Department continued to make progress in correcting deficiencies identified
in prior years, additional effort is needed to ensure that the risks of operating systems are
identified and that systems and information are adequately secured. In particular:
   •   Even though contractor resources accounted for a majority of the Department's more than
       500 systems, it still had not reported performance metric data for all contractor systems.
       In response to our prior year's evaluation, management indicated its intent to fully report
       metrics for all contractor systems. However, we found that a significant percentage of
       the metric information reported to the Department of Homeland Security as part of
       annual FISMA reporting requirements excluded contractor systems.

   •   We discovered network systems and workstations at 13 locations with patch management
       weaknesses of varying degrees of criticality. Specifically, critical and high-risk
       vulnerabilities were identified on many of the systems and networks tested.

   •   Our testing also revealed that six locations had weaknesses related to system integrity of
       Web applications. In these instances, Web applications—including business, human
       resources, and general support applications—did not properly validate input data,
       increasing the risk of malicious attacks that could result in unauthorized access to the
       application and sensitive data stored within them.

   •   At eight locations, issues related to weaknesses in logical access controls were identified
       that could allow an attacker to gain access to sensitive data or disrupt network
       connectivity to systems, applications, and devices.

   •   Weaknesses related to the configuration management process, including inadequate
       support for testing and approving changes, existed at four locations. Configuration
       management involves the identification and management of security features for all
       components of an information system at a given point and systematically controls
       changes to that configuration during the system's life cycle.

   •   At three locations, the overall security management program contained various
       deficiencies related to cybersecurity training, audit logging and monitoring, system
       inventories, incident reporting, and contingency planning.

The issues identified occurred, at least in part, because the Department's programs and sites
reviewed had not ensured that cybersecurity policies and procedures were developed and
properly implemented. For example, numerous locations had not implemented processes that
could have prevented many of the weaknesses identified during our testing. In addition, as noted
in our prior evaluation report, the Department's performance monitoring and risk management
programs were not completely effective.

Without improvements, the Department's unclassified cybersecurity program will continue to
operate at a higher-than-necessary level of risk. In addition, the weaknesses identified in this
report should be thoroughly considered as the Department transitions its cybersecurity program
from the traditional compliance-based process to one that supports the National Institute of
Standards and Technology's Risk Management Framework and continuous system
authorizations. Continued deficiencies in the areas outlined in this report could adversely affect
the Department's ability to gain or retain assurance that its systems and data are operated and
maintained within acceptable levels of risk.

                                                 2
Due to the sensitive nature of the vulnerabilities identified during our evaluation, specific
information and site locations have been omitted from this report. Site and program officials have
been provided with detailed information regarding vulnerabilities that were identified at their sites
and, in many cases, initiated corrective actions to address the identified deficiencies.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that corrective actions
had been initiated or were planned to address the issues identified in the report. Management's
comments and our responses are summarized in the body of the report. Management's formal
comments are included in their entirety in Appendix 3.

Attachment

cc: Deputy Secretary
    Under Secretary for Nuclear Security
    Deputy Under Secretary for Science and Energy
    Deputy Under Secretary for Management and Performance
    Chief of Staff
    Acting Chief Information Officer
    Acting Chief Financial Officer




                                                 3
EVALUATION REPORT ON THE DEPARTMENT OF
ENERGY'S UNCLASSIFIED CYBERSECURITY PROGRAM –
2014


TABLE OF CONTENTS

Evaluation Report

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................9

Management Response and Auditor Comments ............................................................................10

Appendices

     1. Objective, Scope and Methodology ...................................................................................11

     2. Related Reports ..................................................................................................................13

     3. Management Comments ....................................................................................................17
THE DEPARTMENT OF ENERGY'S UNCLASSIFIED
CYBERSECURITY PROGRAM – 2014

DETAILS OF FINDING
The Federal Information Security Management Act of 2002 (FISMA) mandated that agency
Offices of Inspector General conduct annual independent evaluations to determine whether
unclassified cybersecurity programs adequately protected data and information systems. During
Fiscal Year (FY) 2014, we reviewed the unclassified cybersecurity programs at 24 Department
of Energy (Department) locations, including Headquarters. The scope of our fieldwork activities
included validating corrective actions taken to remediate prior year weaknesses, reviewing
information technology controls over networks and applications, and conducting technical
vulnerability scanning both within and external to the networks.

Actions taken to improve the Department's unclassified cybersecurity program since our prior
evaluation resulted in the closure of 25 of the 39 deficiencies reported in our FY 2013 review.
However, test work performed in conjunction with the current year's review continued to identify
weaknesses in the same areas reported in past years. Specifically, our review of the
Department's Under Secretary for Nuclear Security, Under Secretary for Science and Energy,
and Under Secretary for Management and Performance organizations found that additional effort
is needed to ensure that systems and information are adequately secured, and the risks of
operating systems are known. Based on the results of our FY 2014 evaluation, we identified
vulnerabilities at many of the 24 locations reviewed, including 11 new and 14 unresolved
weaknesses from prior years' reviews.

Program Improvements

During FY 2014, the Department, including the National Nuclear Security Administration
(NNSA), had taken several positive actions to improve the security and awareness of its
unclassified cybersecurity program. In particular:

   •   In July 2014, the Department's Cyber Council formalized and approved its Information
       Management Governance Framework. The overall goals of the framework are to support
       mission enhancement, operational excellence and risk management across the
       Department. It is intended to ensure that policy decisions are appropriate, foster open and
       honest communication, and support collaborative oversight of information management
       to achieve transparency and accountability.

   •   NNSA continued to enhance its Enterprise Continuous Monitoring Program. When fully
       implemented, this automated solution is expected to enable the transformation of the
       static compliance-based risk determination process into a dynamic process, thus
       facilitating near real-time situational awareness and appropriate cost-effective risk-based
       decisions. As of August 2014, NNSA reported that all of its sites, including
       Headquarters, had successfully established and were operating internal data feeds
       supporting information related to systems, FISMA compliance and plan of action and
       milestone progress.




Details of Finding                                                                        Page 1
   •   The Office of Environmental Management continued to implement its Mission
       Information Protection Program, which provided enterprise capabilities to 15 sites
       through its Continuous Monitoring Center. Program capabilities included firewalls,
       capture of network traffic, intrusion detection, malware reverse engineering, vulnerability
       scanning, log management, patching of third-party products and other custom solutions
       that provided additional insight into the Office of Environmental Management's
       cybersecurity posture.

   •   The Office of the Chief Information Officer reported various cybersecurity improvements
       that resulted in significant risk reduction to the operating environment it manages. As of
       July 2014, officials reported that the organization had implemented configuration
       enhancements to its architecture and operating environment, deployed a virtual desktop
       infrastructure service, reduced the number of critical systems with Internet access, added
       risk mitigation capabilities to its servers and gateway, and improved vulnerability and
       patch management processes and procedures.

Although these actions should help improve enterprise-level awareness and management of the
Department's unclassified cybersecurity program, our current evaluation identified weaknesses
that, if left uncorrected, could adversely affect the Department's ability to identify, assess, and
mitigate new and existing threats and risks to its systems and data.

Unclassified Cybersecurity Program Implementation

The FY 2014 evaluation identified an ongoing area of concern related to the completeness of
cybersecurity performance metrics reported to the Department of Homeland Security (DHS) for
analysis and consideration in the Office of Management and Budget's annual FISMA report to
Congress. In addition, our current evaluation identified weaknesses in security patch
management, system integrity of Web applications, access control, configuration management,
and security management. Taking into consideration the Department's risk-based approach to
cybersecurity, the weaknesses noted in our report generally had not been identified and/or the
risk posed by the weaknesses accepted by management prior to our testing.

                                       Security Reporting

Contrary to management comments on our prior year's evaluation, the Department still had not
reported performance metric data for all contractor systems. Performance metrics related to 11
cybersecurity areas are to be reported to DHS and the Office of Management and Budget under
the requirements of FISMA. The failure to report contractor system information was first
identified in our evaluation report on The Department of Energy's Unclassified Cyber Security
Program – 2013 (IG-0897, October 2013). In response, management stated that performance
metrics would be reported for both Federal and contractor resources. However, our review of the
FY 2013 annual report submitted to DHS found that 60 of 97 metrics requested had been
completed for Federal systems only, even though contractor resources accounted for 359 of the
Department's 511 (70 percent) reported systems. As a result, the Department did not provide
complete information related to its cybersecurity program in all or a portion of eight reporting
areas, including configuration management, vulnerability and weakness management, identity
and access management, boundary protection, and remote access. In addition, representatives

Details of Finding                                                                           Page 2
from a number of locations indicated that information related to the Administration Priority
topics (continuous monitoring, identity management, and boundary protection) was either not
applicable or had not been requested by the cognizant Headquarters element. As such, progress
towards implementing important initiatives such as Homeland Security Presidential
Directive 12, could not be effectively measured.

Our review of the Department's data call for the FY 2014 annual FISMA report to DHS found
that contractor results still had not been requested for metrics related to data protection and
incident management, and only partial results had been requested for metrics related to asset
management, identity and access management, remote access, and boundary protection. While
the Department's Memorandum of Understanding with DHS allowed for documented, mutually
acceptable alternative methodologies, such action had not been taken to modify the Department's
reporting requirements.

                                     Patch Management

The Department continued to make improvements to its patch management program, resulting in
the closure of four prior-year deficiencies in this area. However, our testing of a limited number
of network segments, general business and related systems, and workstations at 13 locations
identified weaknesses of varying degrees of criticality. Specifically, critical and/or high-risk
vulnerabilities were identified on many of the systems and networks tested. For instance:

   •   One location was running operating system and/or client applications without current
       security patches for known vulnerabilities that had been released more than 90 days prior
       for 235 of 270 (87 percent) workstations tested. Missing patches included those for
       productivity, mobile device management and remote access applications, databases,
       development environments, media players, and Web browser add-ons. Similarly, another
       location had not completed corrective action to correct the weaknesses identified during
       our prior year's evaluation.

   •   Network systems at three locations were running operating system and/or application
       software without current security patches for known vulnerabilities that had been released
       more than 30 days prior to testing. Similar issues had been noted at two of these
       locations for at least 4 years. Overall, we identified 180 instances of outdated or missing
       patches on these systems.

   •   Two locations were running operating systems or applications that were no longer
       supported by the vendor on 16 servers—2 of which had not been supported since 2010.
       In addition, two systems at one location were using an application for which vendor
       support had ended in late 2013. In this case, management indicated that the upgrade to a
       supported application was planned to be completed in late 2014. However, until such
       action is completed, the risk to the systems and information remains higher than
       necessary. This issue is similar to weaknesses identified in our Special Report on The
       Department of Energy's July 2013 Cyber Security Breach (DOE/IG-0900, December
       2013).




Details of Finding                                                                        Page 3
Although officials at the reviewed locations noted that certain controls to mitigate the risks
associated with these security weaknesses had been implemented, an attacker may have been
able to successfully execute attacks against the vulnerable servers, applications, and workstations
by using publicly available exploits as well as custom attacks with no known signatures.
Exploitation by unauthorized or malicious individuals could lead to disruption of sensitive data
or systems, as well as theft or improper disclosure of confidential business information. Notably,
the Department's Office of Enterprise Assessments reported similar issues at four locations in
FY 2014.

                           System Integrity of Web Applications

We identified numerous weaknesses at six locations related to system integrity of Web
applications. In these instances, Web applications—including business, human resources, and
general support applications—did not properly validate input data, increasing the risk of
malicious attacks that could result in unauthorized access to the application and sensitive data
stored within them. Specifically:

   •   Twelve applications at six locations accepted malicious input data that could be used to
       launch attacks to gain unauthorized access to the application. Such attacks, known as
       cross-site scripting, could allow an attacker to compromise legitimate users' workstation
       and application logon credentials. One of the 10 applications also did not validate input
       data and allowed the data to be used in improperly designed queries, thereby making the
       application vulnerable to attacks against the application's database server. This type of
       attack could result in the loss or modification of information stored within the database.

   •   Another application used to support financial processing did not properly validate access
       privileges associated with end-user requests. We found that the application could accept
       requests regardless of the role the requesting user had been assigned and could have
       allowed unauthorized access to the system's information.

   •   One access control application stored user authentication information in an unsecured
       manner on the system, making the information accessible to any Web server on the same
       network. Web applications that do not properly protect the confidentiality of user
       authentication tokens are at increased risk of unauthorized access to the application and
       sensitive data stored within the system.

   •   One location had corrected specific issues identified in prior years. However, its
       corrective action plan to implement Web access management and user identity
       administration functionality and develop a risk-based approach for managing its Web
       applications had not been completed.

Web application attacks could have negative impacts on the security of the information systems,
as well as application and data reliability. The Office of Enterprise Assessments noted similar
issues at five locations it reported on in FY 2014.




Details of Finding                                                                         Page 4
                                       Access Control

Although the Department had taken steps to correct several of the access control-related
weaknesses identified in our prior year's review, several locations continued to experience
problems in this area. Strong access controls provide assurance that access to information
technology resources is reasonable and restricted to authorized individuals. Our review found:

   •   Eight locations had not performed a periodic review of system accounts and/or
       disabled or removed system accounts in a timely manner. For instance, two locations
       had not completed actions to correct issues identified during our previous evaluation.
       Another location conducted a management review of user accounts to identify and
       remove those that were associated with terminated employees. However, the review
       was performed using an outdated database and, as a result, officials still had not
       disabled or removed terminated users' access in a timely manner. Although required
       by site-level procedures, a fourth location had not deactivated seven user accounts in a
       timely manner upon termination, including three that were not set to expire after
       60 days of inactivity.

   •   Three locations had not securely configured network servers, devices and/or workstations
       to protect against unauthorized access. We identified 41 servers, 14 workstations and 2
       network devices that were configured with default or easily guessed passwords. In
       addition, two file shares, five servers and one network device at two of the locations were
       configured to allow connections from any other system without the use of authentication
       or other access controls. Further, numerous systems at one location were affected by an
       authentication bypass vulnerability that could allow an individual to logon as an
       administrator without a password.

Databases with default or weak login credentials are at increased risk of unauthorized access,
which could allow an attacker to gain access to sensitive data. Unauthorized access to network
devices could result in a disruption of network connectivity to those devices or even
unauthorized access to other key systems, applications and devices. The Office of Enterprise
Assessments also identified similar weaknesses at five locations in FY 2014.

                               Configuration Management

Our evaluation identified weaknesses related to the configuration management process at four
locations. Configuration management involves the identification and management of security
features for all components of an information system at a given point and systematically controls
changes to that configuration during the system's life cycle. At one location, although
modifications to the property management application were tracked, our review of a sample of
changes found that change requests did not contain sufficient details to determine whether the
changes had been authorized, tested and approved prior to implementation.

In addition, changes made to applications at three locations had been performed by developers
without appropriate segregation of duties, including providing developers with administrator
access to the application's production environment even though such privilege was not needed to
perform their job functions. At another location, we found that previously identified weaknesses


Details of Finding                                                                        Page 5
related to the application change control process still had not been fully remediated. In several
instances, management indicated that mitigating controls were in place, and the risk of the
identified weaknesses had been accepted.

                                    Security Management

Our evaluation identified several weaknesses at one location related to the site's overall
security management program. In particular, site officials had not ensured that personnel with
information security responsibilities had received specialized, role-based training, system access
and activity was not logged and monitored, and servers and the information supporting the
logging and security functions were not always protected from unauthorized access, modification
and/or deletion. In addition, the site had not developed a complete inventory of information
system assets, and all lost/stolen equipment was not appropriately reported to the Department's
Joint Cybersecurity Coordination Center. Although these weaknesses had been discovered
during our prior year's evaluation, the site had not completed corrective actions in these areas.
Management indicated that remediation was expected to be completed in FY 2015.

The evaluation also identified opportunities for improvement related to contingency planning at
two locations. One location had not reviewed and updated its Continuity of Operations and
Information Technology Disaster Recovery Plans in almost 3 years, despite the requirements to
do so at least annually. In addition, although one site was preparing its Business Impact Analysis
at the time of our testing, the document had not been completed. The Office of Enterprise
Assessments identified similar issues related to training, incident response, contingency planning
and/or audit logging processes within the unclassified cybersecurity programs at all locations
reported on during FY 2014.

Management of the Unclassified Cybersecurity Program

The issues identified occurred, at least in part, because the Department's elements had not
ensured that cybersecurity policies and procedures were developed and implemented. In
addition, as noted in our prior evaluation report, the Department continued to encounter
weaknesses related to effective performance monitoring and risk management programs.

                                   Policies and Procedures

The Department's programs had not always established or updated cybersecurity policies in a
timely manner to ensure that site systems were not exposed to a higher than necessary level of
risk. In particular, despite noting that it would be updated at least every 2 years, the Office of
Science had not updated its Program Cybersecurity Plan since June 2010. This policy is meant
to provide a foundation for ensuring the confidentiality, integrity and availability of information
and systems at the National Laboratories managed by the Office of Science. However, a review
of the current plan noted that, in at least one instance, it required the use of an outdated version
of cybersecurity requirements promulgated by the National Institute for Standards and
Technology. Officials within the Office of Science indicated that the plan was expected to be at
least partially updated by December 2014.




Details of Finding                                                                           Page 6
In addition, several issues identified during the FY 2014 evaluation occurred because sites had
not documented processes and procedures to ensure that unclassified cybersecurity programs
adequately protected the sites' unclassified systems and information. Specifically, two locations
had not fully established procedures to ensure security vulnerabilities were identified, monitored
and remediated in a timely manner, including weaknesses related to default and easily guessed
passwords. In addition, four locations had not developed processes to validate input information
and/or identify, monitor and remediate vulnerabilities in Web-facing applications, and one
location had not developed procedures to establish auditable events and audit record retention
periods.

Although processes and procedures at certain locations had been documented, they were not
always fully implemented. In one case, we found that system security officials were unaware of
the process requirements. In addition, while processes had been developed and implemented at
three locations, the processes did not always work as expected. For example, one site had
implemented a system to block vulnerable hosts from connecting to the network; however,
coding errors within the system prevented it from initiating blocks in some cases. At another
location, system changes had not been fully tested to ensure that they had not negatively affected
the system's functionality.

                     Performance Monitoring and Risk Management

Since our prior review, the Department had made limited progress in improving its corrective
action tracking process. Specifically, the use of plans of action and milestones is required to
identify and measure progress toward remediating known cybersecurity weaknesses. When used
properly, the process can be an invaluable monitoring tool for management to identify, prioritize
and track remediation activities for known cybersecurity weaknesses. However, we identified
concerns that hampered management's ability to use the tool as envisioned. In particular:

   •   Although all programs submitted plans of action and milestones to the Department's
       Office of the Chief Information Officer, they were not always complete and, as such, did
       not provide a complete inventory of known weaknesses. We found that 22 of 39
       weaknesses identified during our FY 2013 evaluation were not tracked in the plans of
       action and milestones submitted to the Department. As noted in our prior reports, failure
       to track and report known weaknesses deprives senior Department management of
       needed visibility into critical weaknesses in the unclassified cybersecurity program.

   •   Similar to our FY 2013 evaluation, we noted that the percentage of overdue milestones
       continued to increase. We found that 699 of 1,072 (65 percent) open milestones were
       past the scheduled completion date—a significant increase from the 51 percent reported
       in the prior year. Of those, almost half had exceeded their expected completion date by
       more than a year. While it is not expected that all corrective actions would be completed
       as scheduled, the increase in the number of missed milestones concerns us.

   •   Our analysis determined that 266 of the Department's 638 (42 percent) open weaknesses
       had been assigned a remediation cost of 1 dollar. The required resources are an




Details of Finding                                                                        Page 7
         important element used by management in prioritizing and budgeting for corrective
         actions. Interestingly, weaknesses assigned to the Office of the Chief Information Officer
         accounted for more than half of these items.

    •    In many cases, the Department's plans of action and milestones did not provide
         information at a level of granularity that would allow management to monitor and track
         progress made toward remediating weaknesses. Specifically, approximately two-thirds
         of open weaknesses only had one associated milestone.

Several locations had not implemented risk management programs that allowed the Authorizing
Official 1 to fully consider all risks when accepting the risk of system operation. For example, at
two locations, the risk management process did not include documentation and acceptance of
risks related to operating Web applications. Another location had not fully implemented its risk
management program to include an accurate system inventory, which could increase the risk of
implementing inadequate security controls on systems.

Risk to Information and Systems

Without improvements, the Department's unclassified cybersecurity program will continue to
operate at a higher-than-necessary level of risk. Deficiencies in developing, updating and
implementing guidance and processes have adversely affected the Department's ability to
properly secure its systems and the information stored within them. In addition, the
weaknesses identified throughout this report may increase the risk of unauthorized disclosure
of sensitive information in mission-based and financial systems and, as such, should continue
to be addressed by management. Further, ineffective tracking of known cybersecurity
weaknesses could result in understating a system's residual risk—that risk remaining after
mitigation of known weaknesses—resulting in the Authorizing Official assuming
responsibility for the system without having full awareness of its vulnerabilities.

The weaknesses identified in this report should be thoroughly considered as the Department
transitions its cybersecurity program from the traditional compliance-based certification and
accreditation process to one that supports the National Institute of Standards and Technology's
Risk Management Framework and ongoing system authorizations. Without improvements in
the areas listed within this report, the Department's ability to gain or retain assurance that its
systems and data are operated and maintained within tolerable levels of risk could be adversely
affected.




1
  An Authorizing Official is a senior Federal official or executive with the authority to formally assume
responsibility for operating an information system at an acceptable level of risk.



Details of Finding                                                                                          Page 8
RECOMMENDATIONS
To improve the Department's unclassified cybersecurity program and to correct the weaknesses
identified in this report, we recommend that the Under Secretary for Nuclear Security, Under
Secretary for Science and Energy and Under Secretary for Management and Performance, in
coordination with the Department's and National Nuclear Security Administration's Chief
Information Officers, direct Federal and contractor programs and sites to:

   1. Correct, through the implementation of appropriate controls, the weaknesses identified
      within this report;

   2. Develop and implement policies and procedures, as needed, in accordance with Federal
      and Department requirements to ensure that systems and information are and remain
      adequately secured;

   3. Fully develop and utilize plans of action and milestones to improve its performance
      monitoring program by identifying, prioritizing and tracking the progress of remediation
      actions for all identified cybersecurity weaknesses; and

   4. Include complete information for both Federal- and contractor-managed cybersecurity
      programs when reporting the status of performance metrics annually to DHS.




Recommendations                                                                        Page 9
MANAGEMENT RESPONSE
Management concurred with each of the report's recommendations and indicated that corrective
actions had been initiated or were planned to address the identified issues. For instance,
management stated that the specific weaknesses identified in our report would be included in the
Department's plan of action and milestones. In addition, management stated that it would
enhance its capabilities to assess the plans of action and milestones for completeness and
accuracy and initiate processes to validate information. Management also commented that it
would continue to work to identify an effective means to capture cybersecurity metric data and
ensure that a strategy is implemented to collect more accurate data in the various FISMA metric
areas, particularly those related to the Administration's priorities.

AUDITOR COMMENTS
Management's comments and planned corrective actions were responsive to our recommendations.
Management's comments are included in Appendix 3.




Management Response and Auditor Comments                                               Page 10
                                                                            APPENDIX 1

                  OBJECTIVE, SCOPE AND METHODOLOGY
Objective

To determine whether the Department of Energy's (Department) unclassified cybersecurity
program adequately protected its data and information systems.

Scope

We conducted the evaluation from February to October 2014, at 24 Department locations under
the responsibility of the Under Secretary for Nuclear Security, Under Secretary for Science and
Energy and the Under Secretary for Management and Performance. The focus of our evaluation
was the Department's unclassified cybersecurity program. This work involved a limited review
of general and application controls in areas such as security management, access controls,
configuration management, segregation of duties and contingency planning. Where
vulnerabilities were identified, the evaluation did not include a determination of whether the
vulnerabilities were actually exploited. This audit was conducted under the Office of Inspector
General Project Number A14TG026.

Methodology

To accomplish our objective, we:

   •   Reviewed Federal regulations and Department directives pertaining to information and
       cybersecurity.

   •   Reviewed applicable standards and guidance issued by the National Institute of Standards
       and Technology for the planning and management of system and information security.

   •   Obtained and analyzed documentation from Department programs and selected sites
       pertaining to the planning, development, and management of cybersecurity-related
       functions, such as cybersecurity plans and plans of action and milestones.

   •   Held discussions with officials from the Department and the National Nuclear Security
       Administration.

   •   Assessed controls over network operations and systems to determine the effectiveness
       related to safeguarding information resources from unauthorized internal and external
       sources.

   •   Evaluated selected Headquarters' offices and field sites in conjunction with the annual
       audit of the Department's Consolidated Financial Statements, utilizing work performed
       by KPMG, LLP, the Office of Inspector General's contract auditor. Office of Inspector




Objective, Scope and Methodology                                                       Page 11
                                                                              APPENDIX 1
       General and KPMG, LLP work included analysis and testing of general and application
       controls for systems, as well as internal and external vulnerability testing of networks,
       systems and workstations.

   •   Evaluated and incorporated the results of other cybersecurity review work performed by
       the Office of Inspector General, the Government Accountability Office and the Office of
       Enterprise Assessments' Office of Cyber and Security Assessments.

We conducted this evaluation in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our objectives. Accordingly, we assessed significant internal controls
and the Department's implementation of the GPRA Modernization Act of 2010 and determined
that it had established performance measures for its information and cybersecurity program.
Because our review was limited, it would not have necessarily disclosed all internal control
deficiencies that may have existed at the time of our evaluation. We did not solely rely on
computer-processed data to satisfy our objective. However, computer-assisted audit tools were
used to perform scans of various networks and drives. We validated the results of the scans by
confirming the weaknesses disclosed with responsible on-site personnel and performed other
procedures to satisfy ourselves as to the reliability and competence of the data produced by the
tests.

An exit conference was held with management on October 22, 2014.




Objective, Scope and Methodology                                                         Page 12
                                                                             APPENDIX 2

                                 RELATED REPORTS
Office of Inspector General

   •   Audit Report on The Department of Energy's Implementation of Voice over Internet
       Protocol Telecommunications Networks (DOE/IG-0915, June 2014). Our review
       identified opportunities to improve the efficiency and enhance cybersecurity of the
       Department of Energy's (Department) Voice over Internet Protocol (VoIP) networks. In
       particular, we found that programs and sites had not always applied required
       cybersecurity controls to VoIP networks, thus increasing the risk of compromise. The
       issues identified occurred, in part, because the Department had not adequately monitored
       the implementation of cybersecurity controls for VoIP systems. Without improvements,
       the duplicative and fragmented VoIP implementation approach that we identified could
       continue unabated and result in additional, unnecessary expenditures of resources at
       programs and/or sites that have not yet upgraded to VoIP systems.

   •   Special Report on the Office of Energy Efficiency and Renewable Energy's Integrated
       Resource and Information System (DOE/IG-0905, April 2014). Our review largely
       substantiated the allegations received related to contract and project management. We
       discovered that the Office of Energy Efficiency and Renewable Energy (EERE) had not
       effectively managed the development and implementation of the Integrated Resource and
       Information System (IRIS). In particular, EERE failed to follow the Department's
       structured capital planning and investment control process and had not provided effective
       monitoring of the project. In addition, EERE had not implemented key cybersecurity
       controls designed to protect IRIS and the network on which it resided. Without a well-
       defined project planning and execution process that includes baselines and deliverables,
       EERE could not ensure that significant funds spent on IRIS and other future information
       technology projects were used in a cost effective manner.

   •   Special Report on The Department of Energy's July 2013 Cyber Security Breach
       (DOE/IG-0900, December 2013). In spite of a number of early warning signs that certain
       personnel-related information systems were at risk, the Department had not taken action
       necessary to protect the personally identifiable information of a large number of its past
       and present employees, their dependents, and many contractors. We concluded that the
       July 2013 incident resulted in the exfiltration of a variety of personally identifiable
       information on over 104,000 individuals. Our review identified a number of technical
       and management issues that contributed to an environment in which this breach was
       possible. Compliance and technical problems included the frequent use of complete
       social security numbers as identifiers, permitting direct internet access to a highly
       sensitive system without adequate security controls, lack of assurance that required
       security planning and testing activities were conducted, and failure to assign the
       appropriate level of urgency to replace end-of-life systems. We also identified numerous
       contributing factors related to inadequate management processes. These issues created an
       environment in which the cybersecurity weaknesses we observed could go undetected
       and/or uncorrected. While we did not identify a single point of failure that led to the



Related Reports                                                                        Page 13
                                                                              APPENDIX 2
       breach, the combination of the technical and managerial problems we observed set the
       stage for individuals with malicious intent to access the system with what appeared to be
       relative ease.

   •   Special Report on Management Challenges at the Department of Energy – Fiscal Year
       2014 (DOE/IG-0899, November 2013). Based on the work performed during Fiscal Year
       2013, the Office of Inspector General identified eight areas, including cybersecurity,
       which remained a management challenge for the Department in Fiscal Year 2014.

   •   Evaluation Report on The Department of Energy's Unclassified Cyber Security Program
       – 2013 (DOE/IG-0897, October 2013). The Department had taken a number of positive
       steps over the past year to correct cybersecurity weaknesses related to its unclassified
       information systems. In spite of these efforts, we found that significant weaknesses and
       associated vulnerabilities continued to expose the Department's unclassified information
       systems to a higher than necessary risk of compromise. Our testing revealed various
       weaknesses related to security reporting, access controls, patch management, system
       integrity, configuration management, segregation of duties and security management. In
       total, we discovered 29 new weaknesses and confirmed that 10 weaknesses from the prior
       year's review had not been resolved. The weaknesses we identified occurred, in part,
       because Department elements had not ensured that policies and procedures were fully
       developed and implemented to meet all necessary cybersecurity requirements. In
       addition, the Department continued to operate a less than fully effective performance
       monitoring and risk management program. Absent improvements to its unclassified
       cybersecurity program, the Department's information and systems will continue to be at a
       higher than necessary risk of compromise.

   •   Audit Report on Management of Naval Reactors' Cyber Security Program (DOE/IG-
       0884, April 2013). Although the Naval Reactors Program had made a number of
       enhancements to its cybersecurity program over the past year, we identified weaknesses
       related to vulnerability management, access controls, incident response and security
       awareness training that could negatively affect its security posture. The weaknesses
       identified occurred, in part, because officials had not ensured that necessary cybersecurity
       controls were fully implemented. Specifically, they had not fully developed and/or
       implemented policies and procedures related to vulnerability management, access
       controls, incident response and cybersecurity training. In addition, the Naval Reactors
       Program had not always effectively utilized plans of action and milestones to track,
       prioritize, and remediate cybersecurity weaknesses.

   •   Audit Report on Management of Los Alamos National Laboratory's Cyber Security
       Program (DOE/IG-0880, February 2013). Los Alamos National Laboratory (LANL) had
       taken steps to address concerns regarding its cybersecurity program raised in prior
       evaluations. However, we identified continuing concerns related to LANL's
       implementation of risk management, system security testing and vulnerability
       management practices. The issues identified occurred, in part, because of a lack of
       effective monitoring and oversight of LANL's cybersecurity program by the Los Alamos
       Site Office, including approval of practices that were less rigorous than those required by


Related Reports                                                                          Page 14
                                                                               APPENDIX 2
       Federal directives. In addition, we found that LANL's Information Technology
       Directorate had not followed National Nuclear Security Administration policies and
       guidance for assessing system risk and had not fully implemented the Laboratory's own
       policy related to ensuring that scanning was conducted to identify and mitigate security
       vulnerabilities in a timely manner.

   •   Audit Report on Follow-up Audit of the Department's Cyber Security Incident
       Management Program (DOE/IG-0878, December 2012). Although certain actions had
       been taken in response to our prior audit report, we identified several issues that limited
       the efficiency and effectiveness of the Department's cybersecurity incident management
       program and adversely impacted the ability of law enforcement to investigate
       incidents. The issues identified were due, in part, to the lack of a unified, Department-
       wide cybersecurity incident management strategy. In addition, changes to the
       Department's Incident Management Program policy and guidance may have adversely
       impacted overall incident management and response by law enforcement and
       counterintelligence officials. Also, we found that incident reporting to law enforcement
       was not always timely or complete, which hindered investigations into events. In the
       absence of an effective enterprise-wide cybersecurity incident management program, a
       decentralized and fragmented approach had evolved that placed the Department's
       information systems and networks at increased risk.

   •   Evaluation Report on The Department's Unclassified Cyber Security Program – 2012
       (DOE/IG-0877, November 2012). The Department had taken steps over the past year to
       address previously identified cybersecurity weaknesses and enhance its unclassified
       cybersecurity programs. The overall number of identified vulnerabilities decreased from
       56 weaknesses in the prior year's evaluation to 38 in 2012. Although the number of
       vulnerabilities identified was reduced, the types and severity of weaknesses continued to
       persist and remained consistent with prior years. The weaknesses involved problems
       with access controls, vulnerability management, integrity of Web applications, planning
       for continuity of operations and change control management. The weaknesses identified
       occurred, in part, because Department elements had not ensured that cybersecurity
       requirements were fully developed and implemented. In addition, programs and sites had
       not always effectively monitored performance to ensure that appropriate controls were in
       place.

   •   Audit Report on Management of Western Area Power Administration's Cyber Security
       Program (DOE/IG-0873, October 2012). The Western Area Power Administration had
       made a number of enhancements to its cybersecurity program since our prior review.
       However, several weaknesses related to vulnerability management and security controls
       existed that could negatively impact its cybersecurity posture. Specifically, Western
       Area Power Administration had not always implemented cybersecurity controls designed
       to address known system vulnerabilities and ensured that access controls designed to
       protect its information systems and data were in place. The weaknesses identified
       occurred, in part, because Western Area Power Administration had not always
       implemented policies and procedures related to vulnerability and patch management.




Related Reports                                                                           Page 15
                                                                       APPENDIX 2

Government Accountability Office

   •   Report on INFORMATION SECURITY: Federal Agencies Need to Enhance Responses
       to Data Breaches (GAO-14-487T, April 2014).

   •   Report on INFORMATION SECURITY: Agencies Need to Improve Cyber Incident
       Response Practices (GAO-14-354, April 2014).

   •   Report on FEDERAL INFORMATION SECURITY: Mixed Progress in Implementing
       Program Components; Improved Metrics Needed to Measure Effectiveness (GAO-13-
       776, September 2013).

   •   Report on CYBERSECURITY: A Better Defined and Implemented National Strategy Is
       Needed to Address Persistent Challenges (GAO-13-462T, March 2013).

   •   Report on HIGH-RISK SERIES: An Update (GAO-13-283 and GAO-13-359T, February
       2013).

   •   Report on CYBERSECURITY: National Strategy, Roles, and Responsibilities Need to Be
       Better Defined and More Effectively Implemented (GAO-13-187, February 2013).




Related Reports                                                                  Page 16
                                            APPENDIX 3

                      MANAGEMENT COMMENTS




Management Comments                              Page 17
                      APPENDIX 3




Management Comments        Page 18
                      APPENDIX 3




Management Comments        Page 19
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
